Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      FDA’S FOOD FACILITY
           REGISTRY




                    Daniel R. Levinson
                     Inspector General

                      December 2009
                     OEI-02-08-00060
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
   I NX TE RC OU DT UI VC ET I SO UN M M A R Y
    E


                  OBJECTIVES
                     To determine the extent to which selected domestic food facilities:

                     (1) registered with the Food and Drug Administration (FDA) and

                     (2) provided complete and accurate information for FDA’s food facility
                         registry.


                  BACKGROUND
                  Each year, more than 300,000 Americans are hospitalized and 5,000 die
                  after consuming contaminated foods and beverages. In the event of an
                  outbreak of a foodborne illness, FDA is responsible for finding the
                  source of the contamination and helping to remove the contaminated
                  food products from the food supply chain. Recent outbreaks of
                  foodborne illness involving peanut butter, peppers, and spinach have
                  raised serious questions about FDA’s ability to protect the Nation’s food
                  supply.

                  The Public Health Security and Bioterrorism Preparedness and
                  Response Act of 2002 requires certain food facilities to register with
                  FDA. The purpose of registration is to provide FDA with sufficient and
                  reliable information about food facilities. This information enables FDA
                  to quickly locate facilities during an outbreak of foodborne illness and to
                  locate these facilities for inspection.

                  FDA requires each domestic food facility to provide information for the
                  registry, including (1) contact information (i.e., name, full address,
                  telephone number, and all trade names under which the facility
                  conducts business); (2) contact information for the parent company;
                  (3) contact information for the owner or operator of the facility; and (4)
                  an emergency contact telephone number. If there is a change in a
                  facility’s information, such as a new name or address, the facility must
                  provide FDA with the updated information within 60 days. The
                  information provided by facilities is stored in a database called the FDA
                  Unified Registration and Listing System (hereinafter referred to as the
                  registry).

                  We based this study on a purposive sample of 130 selected domestic food
                  facilities. To complete our analysis, we compared information about the
                  selected facilities in the registry with information obtained during
                  structured interviews with the facility managers.



OEI-02-06-00060   F D A F O O D FA C I L I T Y R E G I S T RY                              i
E X E C U T I V E                       S U           M M A R Y



                   FINDINGS
                   Seven percent of selected facilities either failed to register or failed
                   to cancel their registration with FDA, as required. Specifically,
                   5 percent of selected facilities (7 of 130) did not register with FDA. For
                   each of these facilities, FDA was missing critical information that could
                   be used to locate the facility in an emergency. In addition, 2 percent of
                   selected facilities (2 of 130) failed to cancel their registration. As a
                   result, the registry contained information about inactive food facilities,
                   which could hinder FDA’s ability to accurately identify food facilities
                   that may be linked to an outbreak of foodborne illness.
                   Almost half of the selected facilities failed to provide accurate
                   information for the registry. Forty-eight percent (62 of 130) of selected
                   facilities either failed to provide accurate information when they first
                   registered or failed to provide accurate information after changes in the
                   facility’s information, as required. Specifically, 30 facilities did not
                   provide accurate contact information for the facilities, 26 facilities did not
                   provide an accurate emergency contact phone number, 20 facilities did
                   not provide accurate contact information for the owner or operator, and
                   14 facilities did not provide accurate contact information for their parent
                   company. In addition, seven facilities created multiple registrations for
                   the same facility. Facility managers most commonly reported that they
                   failed to provide FDA with accurate information either because they did
                   not update the information for the registry as required; they incorrectly
                   entered the information during the initial registration; or the
                   responsibility for maintaining the registration was transferred to another
                   person who mistakenly reregistered the facility.
                   FDA regulations do not ensure that the registry contains certain
                   information that may be needed to locate a facility in an emergency.
                   In many cases, facilities failed to provide information that may be useful
                   to FDA in an emergency because certain information in the registry is
                   optional. Specifically, 23 percent of the facilities (30 of 130) did not
                   provide a valid emergency contact name or a physical address for
                   contacting the parent company or the owner or operator. This lack of
                   information may hamper FDA’s ability to contact food facilities in an
                   emergency.
                   Over half of the managers at the selected facilities were unaware of
                   FDA’s registry requirements. Fifty-two percent of the managers (67 of
                   130) reported that they were unaware of FDA’s registry requirements.
                   This included 5 managers who reported that they were unaware of any

 OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                            ii
E X E C U T I V E                       S U           M M A R Y


                   requirements to register, as well as 62 managers who were unaware of
                   the requirement to update the information in the registry within
                   60 days of a change in the facility’s information.


                   RECOMMENDATIONS
                   To address the findings in this report, we recommend that FDA:

                   Improve the accuracy of the information in the registry.
                   FDA should develop strategies to systematically verify and ensure that
                   the information in the registry is accurate. FDA should seek statutory
                   authority to require food facilities to reregister on a routine basis. It
                   should also consider seeking statutory authority to impose a registration
                   fee to deter facilities from submitting multiple registrations. FDA should
                   also revise the registration process to allow for more checks as the data
                   are entered in the registry and conduct additional checks of information
                   that has already been entered.
                   Consider seeking statutory authority to impose civil penalties
                   through administrative proceedings against facilities that do not
                   comply with the registry requirements. FDA should consider seeking
                   the authority to impose civil penalties through administrative
                   proceedings against facilities that either fail to register or fail to provide
                   accurate information.
                   Consider making some of the optional fields within the registry
                   mandatory. To improve the usefulness of the registry, FDA should
                   carefully consider what information is needed in an emergency and
                   should take action—including seeking statutory authority, if necessary,
                   and making regulatory changes—to ensure that this information is
                   mandatory. Specifically, FDA should consider requiring facilities to
                   identify at least one individual who can be contacted during an
                   emergency. Similarly, for the parent company’s address and the address
                   of the owner or operator, FDA should consider requiring facilities to
                   provide physical addresses rather than mailing addresses.
                   Work with the food industry to increase facilities’ awareness of the
                   registry requirements. FDA should work with the food industry to
                   conduct additional education and outreach activities to inform food
                   facilities about the registry requirements and the importance of providing
                   complete and accurate information.




 OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                            iii
E X E C U T I V E                       S U           M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   FDA generally agreed with our recommendations. FDA noted that the
                   study confirms problems that the agency has encountered as well as the
                   need for additional statutory authority. FDA further noted that it
                   already has in progress several efforts that respond to our
                   recommendations and that provisions in proposed legislation are
                   intended to address many of the problems we identified.

                   FDA agreed in principal to our second recommendation to consider
                   seeking statutory authority to impose civil penalties through
                   administrative proceedings against facilities that do not comply with
                   registry requirements. It indicated that proposed legislation would
                   create a strong incentive to ensure timely and proper registration. We
                   agree that this is a strong incentive to maintain accurate registrations.
                   However, we still recommend that FDA consider seeking statutory
                   authority to impose civil penalties, such as a daily fine, as an
                   intermediate step before taking more severe actions.




 OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                        iv
   T A B L E                      O F                 C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i


                  INTRODUCTION ........................................... 1


                  FINDINGS ................................................. 7
                             Seven percent of selected facilities either failed to register
                             or failed to cancel their registration, as required . . . . . . . . . . . . . . 7

                             Almost half of the selected facilities failed to provide accurate
                             information for the registry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                             FDA’s regulations do not ensure that the registry contains
                             certain information that may be needed to locate a facility
                             in an emergency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                             Over half of the managers at the selected facilities were
                             unaware of FDA’s registry requirements . . . . . . . . . . . . . . . . . . . . 10


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                             Agency Comments and Office of Inspector General Response . . . 13



                  A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                             A: Registration of Food Facilities Regulations . . . . . . . . . . . . . . . 14

                             B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




OEI-02-08-00060         F D A’ S F O O D FA C I L I T Y R E G I S T RY                                                           v
    I N T R O D U C T I O N



                  OBJECTIVES
                     To determine the extent to which selected domestic food facilities:

                     (1) registered with the Food and Drug Administration (FDA) and

                     (2) provided complete and accurate information for FDA’s food facility
                         registry.


                  BACKGROUND
                  Each year, more than 300,000 Americans are hospitalized and 5,000 die
                  after consuming contaminated foods and beverages. 1 In the event of an
                  outbreak of a foodborne illness, FDA is responsible for finding the source
                  of the contamination and helping to remove the contaminated food
                  products from the food supply chain. Recent outbreaks of foodborne
                  illness involving peanut butter, peppers, and spinach have raised serious
                  questions about FDA’s ability to protect the Nation’s food supply.

                  Section 305(a) of the Public Health Security and Bioterrorism
                  Preparedness and Response Act of 2002 requires certain food facilities to
                  register with FDA. 2 The purpose of registration is to provide FDA with
                  sufficient and reliable information about food facilities. 3 This information
                  enables FDA to quickly locate facilities during an outbreak of foodborne
                  illness and to locate these facilities for inspection. 4
                  This report is part of an ongoing body of work by the Office of Inspector
                  General (OIG) on food safety. In a 2009 report on food traceability, we
                  found that only 5 of the 40 products we purchased could be traced through
                  each stage of the food supply chain. 5 That report also found that
                  59 percent of selected food facilities did not comply with FDA’s


                  1 Paul S. Mead et al., “Food-Related Illness and Death in the United States,” Emerging
                  Infectious Diseases, Vol. 5, 1999, pp. 607–625. Available online at
                  http://www.cdc.gov/ncidod/eid/Vol5no5/mead.htm. Accessed on April 1, 2009.
                  2 P.L. No. 107-188 ' 305(a) (codified at 21 U.S.C. ' 350d).
                  3 Federal Register Interim Final Rule, 68 Fed. Reg. 58894 (Oct. 10, 2003): Registration of Food
                  Facilities Under the Public Health Security and Bioterrorism Preparedness and Response Act
                  of 2002 (Volume 68, Number 197). Available online at
                  http://www.fda.gov/Food/FoodDefense/Bioterrorism/FoodFacilityRegistration/ucm081637. htm.
                  Accessed on June 22, 2009.
                  4 Ibid.
                  5 OIG, “Traceability in the Food Supply Chain,” OEI-02-06-00210, March 2009.




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                                             1
I N T R O D       U C T               I O N


                  recordkeeping requirements. A forthcoming study will assess the extent
                  which FDA inspects domestic food facilities and identifies and addresses
                  food facility violations. 6
                  FDA’s Food Facility Registry
                  As of December 2003, FDA began requiring food facilities—both foreign
                  and domestic—that manufacture, process, pack, or hold food for
                  consumption in the United States to register with FDA. 7 FDA requires
                  each domestic facility to provide:

                        a facility name, full address, telephone number, and all trade names
                         the facility uses; 8
                        a name, address, and phone number of the parent company (if
                         applicable);

                        a name, address, and phone number for the owner, operator, or
                         agent in charge of the facility; 9 and
                        an emergency contact phone number. 10

                  FDA also requires each facility to provide information about the
                  categories of foods handled and a statement that the information provided


                  6 “Food and Drug Administration Inspections of Domestic Food Facilities,” OEI-02-08-00080
                  (forthcoming).
                  7 21 CFR §§ 1.225(a) and 1.230. Note that pursuant to 21 CFR § 1.226, certain facilities (such
                  as farms, restaurants, and retail food establishments) are exempt from the registration
                  requirements. Facilities that are required to register include processors, manufacturers,
                  distributors, and warehouses.
                  8 Notice that the regulations require the “full address” for the facility, but require only an
                  “address” for the parent company and the owner or operator. FDA provides further guidance
                  on the address requirements in its Registration of Food Facilities Step-by-Step Instructions.
                  These instructions specify that the address of the facility is the “physical location of the
                  facility being registered. This is normally a street address, but may be some other
                  physical/geographical designation used in rural locations.” Registration of Food Facilities
                  Step-by-Step Instructions. Available online at
                  http://www.fda.gov/Food/GuidanceComplianceRegulatoryInformation/RegistrationofFood
                  Facilities/OnlineRegistration/ucm073706.htm. Accessed on June 23, 2009.
                  9 For the purposes of this report, we refer to this as the requirement to identify the owner or
                  operator.
                  10 Pursuant to 21 CFR § 1.232, foreign facilities are required to submit the same information
                  as domestic facilities, except for the emergency contact phone number. In addition, 21 CFR
                  § 1.232(d) requires each foreign facility to provide the name; address; phone number; and, if no
                  emergency contact is designated under 21 CFR § 1.233(e), the emergency contact phone
                  number of the foreign facility's U.S. agent. Section 21 CFR § 1.227(b)(13) defines a U.S. agent
                  to mean a person residing or maintaining a place of business in the United States whom a
                  foreign facility designates as its agent for purposes of the registration.




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                                                   2
I N T R O D       U C T                I O N

                  is true and that the submitter was authorized to submit the
                  registration. 11 FDA asks each facility to provide, in addition to the
                  required information, optional information, such as the name of an
                  individual to contact in an emergency and a preferred mailing address,
                  fax number, and email address for the facility. 12 Appendix A provides
                  additional information about the registry requirements.

                  FDA requires facilities to provide complete and accurate information for
                  each of the mandatory requirements outlined above. If there is a change
                  in a facility’s information, such as a new name or address, a facility must
                  update this information within 60 days. 13 Facilities are also required to
                  cancel their registration within 60 days if they go out of business, cease
                  providing food for consumption in the United States, or change
                  ownership. 14 If a facility changes ownership, the former owner must
                  cancel the facility’s registration within 60 days of the change and the new
                  owner must reregister the facility. 15
                  Failure to register a facility, failure to update required elements of a
                  facility's registration, or failure to cancel a facility’s registration as
                  required is a prohibited act. 16 The United States can bring a civil action
                  in Federal court to enjoin a person who commits a prohibited act. The
                  United States can also bring a criminal action in Federal court to
                  prosecute a person who is responsible for the commission of a prohibited
                  act. 17
                  Information provided by facilities is stored in a database called the FDA
                  Unified Registration and Listing System (hereinafter referred to as the
                  registry). Facilities may submit their information through FDA’s Web
                  site. If a facility does not have reasonable access to the Internet, it may
                  mail or fax the registration form. Facilities may also mail multiple
                  submissions on a CD-ROM. 18 As of January 2009, the registry contained
                  approximately 150,000 domestic food facility registrations and 216,000
                  foreign food facility registrations. 19


                  11 Ibid.
                  12 21 CFR § 1.233.
                  13 21 CFR § 1.234(a).
                  14 21 CFR §§ 1.235 and 1.234(b).
                  15 21 CFR § 1.234(b).
                  16 21 CFR § 1.241(a).
                  17 Ibid.
                  18 21 CFR § 1.231.
                  19 FDA, “Compliance Information: Registration.” January 2009.




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                         3
I N T R O D         U C T          I O N



                      Related Work
                      In October 2006, FDA conducted a study to assess the accuracy of certain
                      information in the registry. Specifically, FDA evaluated the accuracy of:
                      (1) the required emergency contact phone numbers, (2) the optional fax
                      numbers, and (3) the optional email addresses. The study sampled 400
                      domestic food facilities in the registry and found that this information was
                      inaccurate for 18.5 percent of the facilities. To improve the accuracy of
                      the information in the registry, FDA proposed, among other things, to
                      increase education of food facilities and to implement additional electronic
                      checks to improve data quality.


                      METHODOLOGY
                      Scope
                      This study assesses the extent to which selected facilities registered with
                      FDA and the extent to which selected facilities provided complete and
                      accurate information. This study includes only domestic food facilities. In
                      addition, the findings are limited to selected facilities and are not
                      projectable to all food facilities subject to FDA’s registration
                      requirements. We also limited our review to the key fields in the registry
                      that would likely be needed by FDA in a food emergency.
                      Sample Selection
                      We based our sample on information from a previous OIG study entitled
                      “Traceability in the Food Supply Chain.” 20 In that study, we purchased
                      40 food products from different retail stores around the country and
                      attempted to trace these products through each stage of the food supply
                      chain back to the farm or the border. 21 For each of these 40 products, we
                      asked facilities to identify the sources of these food products. In addition,
                      for each facility that was not a retailer, we requested information about
                      the recipients of the food products. We contacted a total of 118 facilities
                      that were required by FDA to maintain records about their sources or
                      recipients. To select the sample for the current study, we identified 83 of
                      the 118 facilities in our previous study that were also subject to FDA’s
                      registry requirements. For each of these facilities, we randomly selected



                      20 OIG, “Traceability in the Food Supply Chain,” OEI-02-06-00210, March 2009.
                      21 The products—selected in consultation with FDA officials—included bottled water, ice,
                      milk, eggs, yogurt, flour, oatmeal, tomatoes, leafy vegetables, and juice.




  OEI-02-08-00060     F D A’ S F O O D FA C I L I T Y R E G I S T RY                                             4
I N T R O D       U C T               I O N


                  up to three facilities that were identified as recipients of the food
                  products. Based on this information, we identified 58 additional facilities
                  that were subject to FDA’s registry requirements for a total of 141
                  facilities. 22
                  Structured Interviews
                  We conducted structured telephone interviews with managers or other
                  representatives (hereinafter referred to as managers) of the facilities in
                  our sample. 23 In total, we were able to contact the managers for 130 of
                  the 141 facilities, resulting in a 92-percent response rate.

                  For each facility, we asked the manager to verify key information
                  contained in the registry as of February 14, 2008. Specifically, we asked
                  each manager to provide: (1) the facility name, full address, telephone
                  number, and all trade names under which the facility conducted business;
                  (2) the name, address, and telephone number of the parent company (if
                  applicable); (3) the name, address, and telephone number of the owner or
                  operator of the facility; and (4) the emergency contact telephone number.

                  If the information provided by the manager differed from the information
                  in the registry, we asked the manager to explain the discrepancies. For
                  example, we asked whether the manager had failed to update the
                  information for the registry or whether it was inaccurate for other
                  reasons, such as a mistyped phone number or address.

                  Finally, we asked managers about their familiarity with the registry
                  requirements as well as their experiences updating and maintaining their
                  registration. We also asked them where they typically obtained
                  information about FDA rules and regulations. We completed these
                  interviews between June and August 2008.
                  Data Analysis
                  We compared the data from the structured interviews to the information
                  in the registry to determine:

                         (1) the number of facilities that failed to register with FDA,

                         (2) the number of facilities that failed to cancel their registration
                             when they ceased operations, and


                  22 Note that we were able to identify only 58 facilities primarily because not all of the
                  83 facilities had recipients that were subject to the registry requirements.
                  23 In several instances, the same individual or parent company registered multiple facilities.
                  In these cases, we asked the managers to provide relevant information for each of the facilities
                  that they were responsible for, and we counted their responses separately for each facility.




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                                              5
I N T R O D        U C T             I O N



                           (3) the number of facilities that failed to provide accurate and
                               complete information.

                    Specifically, we assessed the accuracy of (1) the required facility name,
                    full address, telephone number, and all trade names the facility uses;
                    (2) the required name, address, and telephone number of the parent
                    company (if applicable); (3) the required name, address, and telephone
                    number of the owner or operator of the facility; and (4) the required
                    emergency contact telephone number. 24 In addition, we determined the
                    number of facilities that did not provide an optional emergency contact
                    name or a physical address for contacting the owner or operator or the
                    parent company. 25 We also analyzed the responses from the structured
                    interviews to determine managers’ awareness of the registry
                    requirements.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




                    24 This study does not assess compliance with the two remaining requirements, which are:
                    (1) to provide a statement that the information submitted in the registry is true and accurate
                    and, if the individual submitting the form is not the owner, operator, or agent, a statement
                    that the submitter was authorized to submit the registration, together with information about
                    the individual who authorized the submission, and (2) to provide information about certain
                    categories of foods handled by the facility.
                    25 The regulations require an address for the owner or operator and the parent company;
                    however, the regulations do not specify that it must be the full address or physical address. In
                    addition, FDA’s Registration of Food Facilities Step-by-Step Instructions provide that for the
                    parent company and for the owner or operator, the address “can be a physical/geographical
                    location or other mailing address.”




 OEI-02-08-00060    F D A’ S F O O D FA C I L I T Y R E G I S T RY                                              6
   FF II NN DD II NN GG SS

      Seven percent of selected facilities either            FDA requires all food facilities to
                                                             register if they manufacture, process,
       failed to register or failed to cancel their
                                                             pack, or hold food for consumption in
              registration with FDA, as required
                                                             the United States. FDA also requires
                      facilities to cancel their registration if they go out of business, cease
                      providing food for consumption in the United States, or change ownership.
                      Five percent of selected facilities failed to register with FDA
                      In total, 7 of 130 facilities that we contacted did not register with FDA.
                      Five of these facilities had never registered with FDA, whereas two
                      facilities failed to register after a change in ownership. As noted earlier,
                      when a facility changes ownership, the new owner must register the new
                      facility within 60 days of the change. The managers at these two facilities
                      confirmed that the change in ownership occurred more than 60 days prior
                      to this review. For all seven facilities, FDA was missing critical
                      information that could be used to locate them in an emergency.
                      Two percent of selected facilities failed to cancel their registration with FDA
                      Of the 130 facilities that we contacted, 2 facilities failed to cancel their
                      registration with FDA. FDA requires facilities to cancel their registration
                      if they go out of business, cease providing food for consumption in the
                      United States, or change ownership. The managers at these two facilities
                      reported that changes in ownership occurred more than 60 days prior to
                      this review and they had failed to cancel their registration. As a result,
                      the registry contained information about inactive food facilities, which
                      could hinder FDA’s ability to accurately identify food facilities that may
                      be linked to an outbreak of foodborne illness.

                                                          Forty-eight percent of selected facilities
    Almost half of the selected facilities failed
                                                          (62 of 130) either failed to provide
          to provide accurate information for             accurate information when they first
                                   the registry           registered or failed to provide accurate
                      information after a change in the facilities’ information, as required. As
                      noted earlier, FDA requires each facility to provide accurate information
                      for the registry. If there is a change in a facility’s information, such as a
                      new name or address, the facility must provide FDA with the updated
                      information within 60 days.
                      As shown in Figure 1, 30 facilities did not provide accurate contact
                      information for the facilities, 26 facilities did not provide an accurate
                      emergency contact phone number, 20 facilities did not provide accurate
                      contact information for the owner or operator, and 14 facilities did not
                      provide accurate contact information for their parent company. In
                      addition, seven facilities created multiple registrations for the same


    OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                           7
                      facility. Pursuant to FDA regulations, each facility should register only
                      once. However, these seven facilities created duplicate registrations
                      rather than updating their existing registration, which resulted in the
                      inclusion of inaccurate information in the registry.



          Figure 1:
Number of Selected                                40
    Facilities With
                                                             30
                           Number of Facilities


        Inaccurate
                                                  30                             26
 Information in the
           Registry                                                                                  20
                                                  20
                                                                                                                        14

                                                  10                                                                                       7


                                                  0
                                                       Fac ilities with    Fac ilities with     Fac ilities with  Fac ilities with   Fac ilities with
                                                        inac c urate         inac c urate     inac c urate owner    inac c urate       multiple
                                                          c ontac t         emergency            or operator     parent c ompany     registrations
                                                        information       c ontac t phone          c ontac t          c ontac t
                                                                              numbers            information       information




                                          Source: OIG analysis of food facilities’ responses, 2009.
                                          Note: These categories are not mutually exclusive.




                      Facility managers most commonly reported that they failed to provide
                      FDA with accurate information either because they did not update the
                      information in the registry, as required; they incorrectly entered the
                      information during the initial registration; or the responsibility for
                      maintaining the registration was transferred to another person who
                      mistakenly reregistered the facility.

                      In addition, 26 percent of the managers at the facilities with inaccurate
                      registrations (16 of 62) reported that they experienced technical
                      difficulties when they tried to register or update information for their
                      facilities. The most common problems reported were difficulties updating
                      information, navigating the Web site, and obtaining passwords for the
                      Web site.




    OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                                                                                8
       F   I N D I N G         S

  FDA’s regulations do not ensure that the registry               In many cases, facilities failed to
                                                                  provide information that may be
contains certain information that may be needed to
                                                                  useful to FDA in an emergency
                   locate a facility in an emergency
                                                                  because certain information in the
                                                                  registry is optional. Specifically, 23
                          percent of the facilities (30 of 130) did not provide a valid emergency
                          contact name or a physical address for contacting the parent company or
                          the owner or operator.
                          Eighteen percent of selected facilities did not provide a valid emergency
                          contact name
                          The emergency contact name is an optional field in the registry, and 18
                          percent of facilities (23 of 130) did not provide a valid emergency contact
                          name. Eight of the facilities did not provide any emergency contact name
                          for the registry, whereas 15 provided the name of a person who was either
                          no longer employed at the facility, changed positions in the facility, or was
                          unknown to the manager. These inaccuracies may hamper FDA’s ability
                          to contact these food facilities in an emergency.

                          In addition, of the facilities that did not provide a valid emergency contact
                          name, eight did not identify a person responsible for the facility elsewhere
                          in the registration. These facilities did not provide the name of an
                          individual as the owner or operator of the facility, but instead had
                          provided the name of the facility or parent company. Although FDA’s
                          guidance does not require that facilities provide the name of a specific
                          individual for the registry, it may be difficult for FDA to quickly locate an
                          individual responsible for a facility in an emergency if the name of an
                          owner, operator, or emergency contact is not included in the registry.
                          Eight percent of selected facilities did not provide a physical address for the
                          owner, operator, or parent company
                          Of the 130 facilities we contacted, 10 facilities provided a mailing address
                          rather than physical address for the owner, operator, or parent company.
                          These facilities provided a post office box where it could receive mail from
                          FDA. Although FDA does not require a physical address for the owner,
                          operator, or parent company, the lack of a physical address could hinder
                          FDA’s ability to respond rapidly to an emergency.




        OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                            9
F    I N D I N G        S

                                                                 Fifty-two percent of the
    Over half of the managers at the selected facilities
                                                                 managers (67 of 130)
        were unaware of FDA’s registry requirements              reported that they were not
                                                                 aware of FDA’s registry
                   requirements. This included 5 managers who reported that they were
                   unaware of any requirements to register, as well as 62 managers who
                   were unaware of the requirement to update the information in the
                   registry within 60 days of a change in the facility’s information.
                   Of the managers who were aware of the registry requirements, they most
                   commonly reported that they received information about the
                   requirements from FDA. Specifically, 33 managers reported they receive
                   information from FDA’s emails, listserv, or Web site. They also reported
                   receiving information from other sources, such as trade publications;
                   industry groups; or internal sources, such as their parent companies or
                   legal departments.




OEI-02-08-00060    F D A’ S F O O D FA C I L I T Y R E G I S T RY                      10
       R E C O M M E N D A T I O N S




                  The purpose of food facility registration is to provide FDA with accurate
                  and useful information about food facilities. This information enables
                  FDA to quickly locate facilities during an outbreak of foodborne illness
                  and to locate these facilities for inspection.

                  Our review raises questions about the accuracy and utility of the registry.
                  Specifically, we found that 7 percent of selected facilities either failed to
                  register or failed to cancel their registration and almost half of the
                  selected facilities failed to provide accurate information for the registry,
                  as required. In addition, we found that FDA’s regulations do not ensure
                  that the registry contains certain information that may be needed to
                  locate a facility in an emergency. Finally, we found that over half of the
                  managers at the selected facilities were unaware of the registry
                  requirements.

                  To address the findings in this report, we recommend that FDA:
                  Improve the accuracy of the information in the registry
                  FDA should develop strategies to systematically verify and ensure that
                  the information in the registry is accurate. To accomplish this, FDA
                  should:

                        Seek statutory authority to require facilities to reregister on a
                         routine basis. If FDA determines that this is not feasible, FDA
                         should develop other methods to verify the information in the
                         registry, such as routinely mailing the information in the registry to
                         the person authorized to maintain it, so that he or she can ensure
                         that the information provided is accurate.

                        Consider seeking statutory authority to impose a registration fee.
                         FDA should collect a fee for each facility registration to deter
                         facilities from submitting multiple registrations.

                        Revise the registration process to allow for more checks as the data
                         are entered in the registry, and conduct additional checks of the
                         information that has already been entered. For example, FDA could
                         implement electronic checks that would alert facilities if
                         information in the registry was incomplete. FDA could also analyze
                         registry data to identify blank fields or incongruous information and
                         request that the facility correct the registration. In addition, FDA
                         should consider using other data sources—such as FDA’s database


OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                           11
R   E C O         M M E N D A T                           I O N       S


                            of food facilities within its jurisdiction, called the Official
                            Establishment Inventory—to verify that the information in the
                            registry is complete and accurate.
                     Consider seeking statutory authority to impose civil penalties through
                     administrative proceedings against facilities that do not comply with the
                     registry requirements
                     FDA should consider seeking the authority to impose civil penalties
                     through administrative proceedings against facilities that either fail to
                     register or fail to provide accurate information. Civil penalties could be
                     an effective method of encouraging facilities to comply with the registry
                     requirements.
                     Consider making some of the optional fields within the registry mandatory
                     To improve the usefulness of the registry, FDA should carefully consider
                     what information is needed in an emergency and should take action—
                     including seeking statutory authority, if necessary, and making
                     regulatory changes—to ensure that this information is mandatory.
                     Specifically, FDA should consider requiring facilities to identify at least
                     one individual that can be contacted during an emergency, such as an
                     emergency contact name or the name of the individual who may be the
                     owner or operator of the facility. Similarly, for the parent company’s
                     address and the address of the owner or operator, FDA should consider
                     requiring facilities to provide physical addresses rather than mailing
                     addresses.
                     Work with the food industry to increase facilities’ awareness of the registry
                     requirements
                     FDA should work with the food industry to conduct additional education
                     and outreach activities to inform food facilities about the registry
                     requirements and the importance of providing complete and accurate
                     information. FDA should focus its education and outreach activities on
                     informing facilities about the requirement to update their information
                     within 60 days of a change in the facility’s information. FDA should
                     consider using industry Web sites and trade publications, in addition to
                     its Web site and listserv, to highlight this requirement.




OEI-02-08-00060      F D A’ S F O O D FA C I L I T Y R E G I S T RY                           12
R   E C O         M M E N D A T                           I O N       S


                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     FDA generally agreed with our recommendations. FDA noted that the
                     study confirms problems that the agency has encountered as well as the
                     need for additional statutory authority. FDA further noted that it already
                     has in progress several efforts that respond to our recommendations and
                     that provisions in proposed legislation are intended to address many of
                     the problems we identified.

                     FDA agreed with our first recommendation to improve the accuracy of the
                     information in the registry. Specifically, FDA noted that proposed
                     legislation includes provisions for either annual or biennial registration,
                     and a provision for an annual registration fee. FDA also stated that it
                     had already revised the registration process to allow for more checks as
                     the data are entered into the registry. FDA further stated that it is using
                     other data sources to verify the accuracy of the registration information.

                     FDA agreed in principle with our second recommendation to consider
                     seeking statutory authority to impose civil penalties through
                     administrative proceedings. FDA noted that proposed legislation would
                     allow FDA to deem a facility’s food misbranded if that facility is not
                     properly registered, and allow FDA to cancel a registration. We agree
                     that this is a strong incentive to maintain accurate registrations.
                     However, we still recommend that FDA consider seeking statutory
                     authority to impose civil penalties, such as a daily fine, as an
                     intermediate step before taking more severe actions, such as seizures.
                     FDA agreed with our third recommendation to consider making some of
                     the optional fields within the registry mandatory. FDA noted that
                     proposed legislation includes a provision for mandating additional
                     information as the Secretary may require. We note that there may be
                     additional revisions FDA can make that do not require statutory changes.

                     FDA did not specifically state whether it agreed with our fourth
                     recommendation to work with the food industry to increase awareness of
                     the registry requirements. However, FDA noted that it has conducted
                     extensive outreach, and that it continues to work with trade associations.
                     We ask that, in its final management decision, FDA more clearly indicate
                     whether it agrees with this recommendation.

                     For the full text of FDA’s comments, see Appendix B.




OEI-02-08-00060      F D A’ S F O O D FA C I L I T Y R E G I S T RY                       13
       A P P E N D I X ~ A


                  Registration of Food Facilities Regulations
                  Title 21 of the Code of Federal Regulations, Chapter I, Subchapter A,
                  Part 1, Subpart H, describes the specific information that each facility
                  must submit under the Registration of Food Facilities provision of the
                  Public Health Security and Bioterrorism Preparedness and Response Act
                  of 2002. Pursuant to 21 CFR § 1.227(b)(2), a facility is:

                         any establishment, structure, or structures under one ownership at
                         one general physical location, or, in the case of a mobile facility,
                         traveling to multiple locations, that manufactures/ processes, packs, or
                         holds food for consumption in the United States. Transport vehicles
                         are not facilities if they hold food only in the usual course of business
                         as carriers. A facility may consist of one or more contiguous
                         structures, and a single building may house more than one distinct
                         facility if the facilities are under separate ownership. The private
                         residence of an individual is not a facility. Nonbottled water drinking
                         water collection and distribution establishments and their structures
                         are not facilities.

                  Pursuant to 21 CFR §1.232, each registrant must submit the following
                  information:

                         (a) the name, full address, and phone number of the facility;

                         (b) the name, address, and phone number of the parent company, if
                             the facility is a subsidiary of the parent company;

                         (c) for domestic and foreign facilities, the names, addresses, and
                             phone numbers of the owner, operator, and agent in charge;

                         (d) for a foreign facility, the name, address, phone number, and, if
                             no emergency contact is designated under § 1.233(e), the
                             emergency contact phone number of the foreign facility’s U.S.
                             agent;

                         (e) for a domestic facility, an emergency contact phone number;

                         (f) all trade names the facility uses;

                         (g) applicable food product categories as identified in § 170.3 of this
                             chapter, unless you check either “most/all human food product
                             categories,” pursuant to § 1.233(j), or “none of the above
                             mandatory categories” because your facility



OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                              14
A   P   P E N D    I X ~              A



                             manufactures/processes, packs, or holds a food that is not
                             identified in § 170.3 of this chapter;
                         (h) the name, address, and phone number for the owner, operator,
                             or agent in charge;

                         (i) a statement in which the owner, operator, or agent in charge
                             certifies that the information submitted is true and accurate. If
                             the individual submitting the form is not the owner, operator, or
                             agent in charge of the facility, the registration must also include
                             a statement in which the individual certifies that the
                             information submitted is true and accurate; certifies that he/she
                             is authorized to submit the registration; and identifies by name,
                             address, and telephone number, the individual who authorized
                             submission of the registration. Each registration must include
                             the name of the individual registering the facility submitting the
                             registration, and the individual's signature (for the paper and
                             CD-ROM options).

                  In addition, pursuant to 21 CFR § 1.233, FDA encourages, but does not
                  require, facilities to submit the following optional information:

                         (a) fax number and email address of the facility;

                         (b) preferred mailing address, if different from that of the facility;

                         (c) fax number and email address of the parent company, if the
                             facility is a subsidiary of the parent company;

                         (d) for a domestic facility, emergency contact name, title, and email
                             address;

                         (e) for a foreign facility, an emergency contact name, title, phone
                             number and email address. FDA will consider the facility's
                             U.S. agent the facility's emergency contact unless the facility
                             chooses to designate another person to serve as an emergency
                             contact under this section;

                         (f) for a foreign facility, title, fax number, and email address of the
                             U.S. agent;

                         (g) type of activity conducted at the facility (e.g., manufacturing/
                             processing or holding);

                         (h) food categories not identified in § 170.3 of this chapter, which are
                         provided in Form 3537, sections 11a (e.g., infant formula, animal
                         byproducts and extracts) and 11b (e.g., grain products, amino acids);


OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                             15
A   P   P E N D    I X ~              A



                         (i) type of storage, if the facility is primarily a holding facility;
                         (j) a food product category of “most/all human food product
                             categories,” if the facility manufactures/processes, packs, or
                             holds foods in most or all of the categories identified in § 170.3 of
                             this chapter;

                         (k) approximate dates of operation, if the facility's business is
                             seasonal;

                         (l) the fax number and email address of the owner, operator, or
                             agent in charge; and

                         (m) the fax number and email address of the individual who
                             authorized submission of the registration.




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                             16
        A P PEN D                  x        B


       Agency Comments




                   DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                         Food and Drug Administration
                                                                                         Silver Spring, MD 20993




                  DATE:         September 25, 2009

                  TO:            Inspector General

                  FROM:          Principal Deputy Commissioner of Food and Drugs

                  SUBJECT:       FDA's General Comments to OIG's draft report titled. FDA's Food
                                 FaciliZy Regis/IY (OEI-02-0B-00060)

                  FDA is providing the attached general comments to the Office ofInspectot General's
                  draft report titled: FDA's Food Facility Registry (OEI-02-08.00060),

                  FDA appreciates the opportunity to review and comment on this draft report before it is
                  published,


                                                                  /S/
                                                       Joshua M. Sfiarfstein. M,D, 

                                                       Principal Deputy Commissioner of Food and Drugs 



                  Attachment




OEI·02·08·00060   FDA's FOOD FACILITY REGISTRY                                                                          17
A   P   P E N D    I X               ~           B




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY   18
A   P   P E N D    I X               ~           B




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY   19
A   P   P E N D    I X               ~           B




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY   20
A   P   P E N D    I X               ~           B




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY   21
A   P   P E N D    I X               ~           B




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY   22
     A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York
                  regional office, and Meridith Seife, Deputy Regional Inspector General.

                  Other principal Office of Evaluation and Inspections staff from the New
                  York regional office who contributed to the report include, Jonathan
                  Bandel, Lucia Fort, Vince Greiber, Iris Lin, Tiffany Moore, and Bailey
                  Orshan; central office staff who contributed include Ayana Everett,
                  Robert Gibbons, and Sandy Khoury.




OEI-02-08-00060   F D A’ S F O O D FA C I L I T Y R E G I S T RY                     23
